           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
        SELECTION PROCESS FOR
   QUICK DISABILITY DETERMINATIONS


       July 2012    A-15-11-11175




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             SOCIAL SECURITY
MEMORANDUM

Date:      July 19, 2012                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Selection Process for Quick Disability
           Determinations (A-15-11-11175)


           OBJECTIVE
           Our objective was to identify disability cases with similar scores that, depending on the
           location of the disability determination services (DDS) processing the case, may or may
           not have been identified as a Quick Disability Determination (QDD) case.

           BACKGROUND
           In 2006, SSA conducted a QDD pilot in the Boston Region. Between October 2007 and
           February 2008, SSA implemented the QDD initiative in all 10 regions to expedite the
           most serious disability cases early in the disability process. The QDD designation
           identifies certain cases that are likely allowances but does not target specific
           impairments. Cases selected for QDD processing have a high degree of probability that
           (1) the individual is disabled and (2) medical evidence is readily available so the DDS
           can process the case quickly. SSA uses a computer-based predictive model (PM) to
           identify potential candidates for the QDD process. 1 The PM is a statistical model
           designed to predict the likelihood of outcomes given established characteristics,
           variables, or factors. As of Fiscal Year (FY) 2011, the PM had identified approximately
           135,000 disability cases as QDD. However, as of FY 2011, SSA had processed
           approximately 103,000 cases as QDD. 2 The cases processed in FY 2011 were not
           necessarily received in FY 2011.

           The QDD process is one of the Agency’s fast-track initiatives identified in the Strategic
           Plan to improve the speed and quality of the disability process. Cases identified as



           1
               SSA, POMS, DI 23022.010 - Processing Quick Disability Determinations - DDS Instructions.
           2
            This total is from Management Information Disability, Quick Disability Determination Receipts, Initial
           Level Cases by Region, Cumulative FYTD September 25, 2010 Through September 30, 2011.
Page 2 - The Commissioner


QDD undergo the same evaluation as non-QDD cases. SSA developed the QDD
process to improve operational efficiency and enhance service to the disabled
population.

Scoring and Thresholds for Disability Cases

When a field office (FO) transmits a case to the DDS, the Electronic Disability Collect
System intercedes and invokes the PM. The PM analyzes the case information and
computes a QDD likelihood score of .0001 to 0.9999 for all disability cases. The PM
evaluates only the information electronically captured at the time of the initial
application. The Office of Program Development and Research (OPDR) established
thresholds for each DDS to identify a target percentage of initial disability cases as
QDD. According to the Annual Performance Plan for FY 2012 and Revised Final
Performance Plan for FY 2011, the Agency’s target was to identify 5 percent of initial
disability cases filed in the last month of the FY as QDD or Compassionate Allowance. 3
The threshold identifies the score that the initial disability case must have to qualify as a
QDD for each DDS.

SSA stated it tested various methods for setting thresholds. For example, SSA
considered setting one national threshold for all DDSs but found that the QDD
workloads differed significantly between the DDSs. Through this testing process, SSA
determined that it was most equitable to set a different threshold for each DDS, with an
objective of setting roughly equivalent workloads at each DDS while ensuring the QDD
PM selected quality candidates for the QDD process.

Since each DDS has a different workload capacity, SSA initially established unique
score thresholds for each DDS that determined which cases were QDD. This meant
that SSA identified similar cases differently depending on the DDS that was processing
the case. Specifically, two people with the same score, processed at different DDSs,
could be a QDD at one DDS but not at the other. However, since QDD’s inception, SSA
has continually enhanced the QDD selection process. As of December 2011, SSA had
implemented standard score thresholds that were uniformly applied across all DDSs.

Revision of the PM

On July 31, 2011, SSA implemented an updated PM and a new DDS threshold
assignment method. The revised PM was to identify more strong candidates for QDD
processing. In view of the improvements to the PM, the Agency decided to implement
standard national DDS thresholds for Title II, Title XVI Adult and Child, and Concurrent
cases. This new threshold setting process allowed SSA to set national thresholds for
each major claim processing group in an efficient and less labor-intensive manner. SSA
stated the revised PM allows for a standard threshold that should eliminate instances
where non-QDD cases would have scores higher than or equal to cases designated as

3
 SSA designed the Compassionate Allowance initiative to quickly identify diseases and other medical
conditions that invariably qualify under a listing of impairments based on minimal, but sufficient, objective
medical information.
Page 3 - The Commissioner


QDD. The exceptions to the standard thresholds were temporary adjustments for some
DDSs that were necessary to avoid sudden and significant changes in QDD workloads.
SSA phased out these temporary adjustments in December 2011.

Before this new approach, SSA optimized thresholds for each DDS and incrementally
changed the thresholds based on the Agency’s strategic goals, projected (or budgeted)
number of initial disability cases, and PM’s performance in each DDS. Therefore,
sometimes DDSs processed similarly scored cases differently for QDD purposes
depending on the DDS assigned the case. 4

For this evaluation, we analyzed the Agency’s selection of QDD cases. Specifically, we
reviewed the scoring of cases based on the previous PM to scores on the revised PM.
The analysis looked at disability cases that FOs transferred to the DDSs in May 2010
and September 2011.

RESULTS OF REVIEW
Our analysis of May 2010 and September 2011 disability cases determined the
following.

1. The Agency identified and processed more cases as QDD in September 2011 than
   May 2010. Specifically, in May 2010, SSA identified 8,946 5 (3.6 percent) of
   245,382 initial disability cases as QDD, whereas, in September 2011, SSA identified
   15,270 (5.3 percent) of 285,981 cases as QDD. Furthermore, SSA processed a
   majority of the May 2010 QDD cases within 20 days.

2. In May 2010 and September 2011 there were 3,692 and 9,176 disability cases,
   respectively, not selected for QDD processing that had higher or exactly equal
   scores of cases identified as QDD, respectively.

The PM did not result in the expedited processing of some disability cases even though
the cases had scores that were higher than or equal to cases expedited as QDD.
However, SSA stated that in December 2011, it further enhanced the PMs.
Management used these enhancements and decided to establish standard thresholds
that apply uniformly across all DDSs and eliminated adjustments used for some DDSs
to avoid sudden and significant changes in QDD workloads.




4
    SSA, POMS, DI 23022.010 - Processing Quick Disability Determinations - DDS Instructions.
5
  The number of cases identified here and elsewhere are a result of our analyses we performed on
custom data extracts from the Structured Data Repository for May 2010 and September 2011. These
totals may vary from the Agency’s management information.
Page 4 - The Commissioner


Analysis of QDD Scores – May 2010

Our analysis determined that there were 245,382 disability cases transferred from the
FO to the DDS in May 2010. Of that number, SSA identified 8,946 as QDD cases. The
scores of these cases range from .7500 to .9894. Below is a breakdown of the QDD
cases.

                         May 2010 Cases Identified as QDD
                     Disability Case Type                    Cases
                     Title XVI Child                         2,146
                     Title II, Title XVI Adult, Concurrent   6,800
                       Total                                 8,946

We identified 12,638 cases whose scores ranged from .7500 to .9894. SSA processed
8,946 as QDD and 3,692 processed as non-QDD. Under the prior threshold
assignment process, there were non-QDD cases whose scores were higher than or
equal to cases designated as QDD. SSA worked cases as QDD depending on the DDS
processing the case. SSA stated this occurred because each DDS had a QDD score
threshold that determined the minimum score a case needed for QDD process
selection. See Appendix C for examples of QDD cases whose scores were lower than
cases not processed as QDD.

During this evaluation, 109 DDS locations processed disability cases including QDD.
These locations consisted of State DDSs, Disability Processing Units, Disability
Processing Branches, Extended Service Teams, and Offices of Medical and Vocational
Expertise.

Non- QDD Elapsed Time Analysis

We reviewed the scores and processing times of disability cases that SSA did not
designate as QDD. There were approximately 236,436 of these cases. Specifically, we
reviewed the number of days between the date the DDS received the case and the date
a medical determination was made. Because of the nature of disability cases, the
Agency does not have a required processing timeframe for disability cases.

We performed this analysis to determine how long it took to process each case. Based
on this analysis, we determined it ranged from 1 to 354 days to complete these cases.
Of that number, SSA processed 101,293 cases (42 percent) between 1 and 60 days.
SSA processed a majority of its QDD cases within 20 days. The following table
illustrates the aging of these cases.
Page 5 - The Commissioner


                                 Aging of Non-QDD Cases
               Aging (in days)         Number of Cases      Percentage
               1 - 20                      10,129                4
               21 -30                      14,570                6
               31 -60                      76,594               32
               61 -90                      69,907               30
               91 - 354                    65,236               28
                                           236,436             100

Analysis of QDD Scores – September 2011

The September 2011 revision of the PM allowed SSA to more accurately select cases
for QDD processing because of improved precision of the PM. Therefore, we analyzed
the scores of disability cases where SSA determined cases to be QDD and not QDD
using the updated PM and revised threshold-setting procedures. We performed this
analysis on the following groups of initial disability cases:

   •   Title II;
   •   Title XVI Adult;
   •   Title XVI Child; and
   •   Concurrent

SSA established a unique score threshold for each of these groups based on the
different case characteristic for each population.

Our analysis determined that there were 285,981 disability cases transferred from the
FO to the DDS in September 2011. Of that number, SSA identified 15,270 as QDD
cases. The scores of these cases ranged from .6025 to .9999. Below is a breakdown
of the QDD cases.

                        September 2011 Cases Identified as QDD
                   Disability Case Type                     Cases
                   Title II                                 7,189
                   Title XVI Adult                           797
                   Title XVI Child                          4,190
                   Concurrent                               3,094
                     Total                                 15,270

We identified 24,446 cases whose scores ranged from .6025 to .9999. SSA designated
15,270 cases as QDD and 9,176 as non-QDD.
Page 6 - The Commissioner


Furthermore, our analysis showed that there were QDD cases that were below the
standard threshold and non-QDD cases that were above the standard threshold. 6 The
following chart illustrates this.
                                       QDD Cases That             Non-QDD Cases
                                       Were Below the             That Were Above
                                         Standard                   the Standard
                  Case Type              Threshold                    Threshold
                  Title II                      118                        550
                  Title XVI Adult                38                         0
                  Title XVI Child                54                        343
                  Concurrent                     17                        153
                     Total                      227                       1,046

As we illustrated above, there were non-QDD cases whose scores were higher than or
equal to cases designated as QDD. SSA stated that these exceptions to the standard
thresholds were temporary for some DDSs to avoid sudden and significant changes in
QDD workloads. SSA stated that in December 2011, it made additional enhancements
to the QDD PMs and established standard thresholds for each of the four models that
applied across all DDSs. Furthermore, SSA eliminated adjustments used for some
DDSs to avoid sudden and significant changes in QDD workloads. See Appendix C for
examples of QDD cases whose scores were lower than cases not processed as QDD.

The following chart illustrates the effect of SSA’s methods for setting DDS thresholds.
For illustrative purposes, the following chart provides the QDD score thresholds for
Title II cases for May 2010, September 2011, and December 2011. 7




6
  The OPDR assigned national standard score thresholds based on the precision levels of each of the
predictive models (Title II, Title XVI Adult and Child, and Concurrent). A case’s score must be at or above
the threshold to be considered as QDD. Because of the sensitive nature of the QDD selection process,
we cannot disclose the national QDD score thresholds that were in effect in September 2011.

7
  For illustrative purposes, the following chart provides the QDD score thresholds for Title II (non-current)
cases for May 2010, September 2011, and December 2011. Because of the sensitive nature of the QDD
selection process, we cannot disclose the QDD score thresholds that were in effect in May 2010,
September 2011, or December 2011. Furthermore, as of May 2010, there were only 109 DDS locations
that processed disability cases including QDD. As of September 2011, 122 DDS locations processed
disability cases including QDD. Therefore, the above chart only displays an incremental score for 109
DDS locations for May 2010.
Page 7 - The Commissioner


                     0.9970
                     0.9920
                     0.9870
                     0.9820
                     0.9770
                     0.9720
                     0.9670
                     0.9620
                     0.9570
                     0.9520
                     0.9470
                     0.9420
                     0.9370
                     0.9320
                     0.9270
                     0.9220                             Highest
                     0.9170
                     0.9120
                     0.9070
                     0.9020
                     0.8970
                     0.8920
                     0.8870
                     0.8820
                     0.8770                                                May 2010 QDD Score Threshold
                     0.8720
                     0.8670                                                - Prior to PM Revision
                     0.8620
                     0.8570                               Highest
                     0.8520
     Range of QDD Score




                     0.8470
                     0.8420                                                September 2011 QDD Score
                     0.8370
                     0.8320                                                Threshold - After July 31, 2011
                     0.8270
                     0.8220                                                Revision
                     0.8170
                     0.8120
                     0.8070                                                December 2011 QDD Score
                     0.8020
                     0.7970                                                Threshold - After December
                     0.7920
                     0.7870                                                2011 Revision
                     0.7820
                     0.7770
                     0.7720
                     0.7670
                     0.7620
                     0.7570
                   Lowest
                     0.7520
                     0.7470
                     0.7420
                     0.7370                                           One Nationwide Score
                     0.7320
                     0.7270
                     0.7220
                     0.7170
                     0.7120
                     0.7070
                     0.7020   Lowest
                     0.6970
                     0.6920
                              106
                              113
                              120
                                1
                                8
                               15
                               22
                               29
                               36
                               43
                               50
                               57
                               64
                               71
                               78
                               85
                               92
                               99




                                       DDS Locations


Of the 15,270 disability cases, the PM identified as QDD in September 2011, SSA
processed 12,256 as of October 20, 2011. Thirty days or less had elapsed between the
date these cases were transferred to the DDS and the date a decision was made for
12,059 (98 percent) of these cases.

When SSA first contemplated a QDD-type process, its goal was to make a fully
favorable determination after receipt in the DDS within 20 days. However, the Agency
never implemented a processing time requirement. DDSs are encouraged, but not
required, to complete QDD cases within 20 days. 8




8
    DI 23022.010 Quick Disability Determination – DDS Instructions.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATION
Over time, SSA identified more cases for processing as QDD. In May 2010, SSA
identified 8,946 initial disability cases as QDD, whereas, in September 2011, SSA
identified 15,270 cases as QDD. Furthermore, SSA processed a majority of the May
2010 QDD cases in 20 days or less. The September 2011 data extract run did not
enable us to determine whether the majority of these cases were processed in 20 days
or less.

In the past, SSA did not expedite processing of some disability cases in some DDSs
even though the cases had scores that were higher than or equal to cases expedited as
QDD in other DDSs. However, SSA stated that in December 2011, it made further
enhancements to the PMs. These model enhancements enabled SSA to establish
standard thresholds for each QDD group, which apply uniformly across all DDSs. SSA
also eliminated the adjustments used for some DDSs to avoid sudden and significant
changes in QDD workloads. We support SSA’s move to standard national thresholds,
as it allows all cases to have the same opportunity for QDD processing regardless of
where the claimant lives or where the case is processed.

We recommend SSA continue efforts to monitor and enhance the PM to meet the
objectives of the QDD program.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix D.




                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Examples of Quick Disability Determination Cases
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgment
                                                    Appendix A

Acronyms
DDS    Disability Determination Services
FO     Field Office
FY     Fiscal Year
OA     Office of Audit
OIG    Office of the Inspector General
OPDR   Office of Program Development and Research
PM     Predictive Model
POMS   Program Operations Manual System
QDD    Quick Disability Determination
SSA    Social Security Administration
                                                                                     Appendix B

Scope and Methodology
To accomplish our objective:

•   We reviewed applicable sections the Social Security Administration’s (SSA)
    regulations, rules, policies and procedures related to Quick Disability Determination
    (QDD).

•   We obtained files of 245,382 and 285,981 unique disability cases that were in
    process in May 2010 and September 2011, respectively. From these populations,
    we identified cases that were

    1. scored by the Predictive Model (PM) and selected and processed a QDD case 1
       or

    2. not selected for the QDD process.

From this population, we performed the following analyses.

QDD Score Analysis – May 2010

We analyzed the scores of disability cases where SSA selected the cases for QDD
processing. We compared these scores to cases with higher or equivalent scores that
SSA determined were not QDD. In view of the selection process SSA used at that time,
there were non-QDD cases whose scores were higher than or equal to cases
designated as QDD. For this analysis, we performed the following steps.

1. We extracted cases that SSA identified and processed as QDD. We sorted the
   scores of these cases from highest to lowest, accepting a range of cases that had
   scores of .7500 to .9894.

2. We extracted cases that SSA did not identify as QDD and SSA did not process as a
   QDD. We sorted the scores of these cases from highest to lowest, accepting a
   range of cases that had scores of .7500 to .9894.

3. We merged the two above populations to compare scores.




1
 We did not apply audit procedures to assess the PM itself and its related internal controls as part of this
evaluation.


                                                    B-1
Non-QDD DDS Elapsed Time Analysis

From our population of disability cases for May 2010, we extracted cases that were not
identified as a QDD case. We determined the number of days to process these cases
by comparing the date the DDS received the case and the date SSA made a medical
determination.

QDD Score Analysis – September 2011

We analyzed the scores of disability cases where SSA determined the cases to be
QDD. First, we determined the number of cases that were above or below the four
national thresholds for Title II, Title XVI Adult and Child, and Concurrent cases.
Second, we compared the scores to cases with higher or equivalent scores that SSA
determined were not QDD. We compared the scores of both of these populations for
cases whose scores ranged from .7500 to .9999. Our analysis showed some non-QDD
cases whose scores were higher than or equal to cases that were designated as QDD.
For this analysis, we performed the following steps.

1. We extracted cases that SSA identified and processed as QDD. We sorted the
   scores of these cases from highest to lowest, accepting a range of cases that had
   scores of .7500 to .9999.

2. We extracted cases that SSA did not identify or process as QDD. We sorted the
   scores of these cases from highest to lowest, accepting a range of cases that had
   scores of .7500 to .9999.

3. We merged the two above populations to compare scores.

4. We also determined the number of days it took SSA to process cases identified as
   QDD. To accomplish this, we determined the number of days between date the
   DDS received the data and the date SSA made a medical determination.

We conducted our evaluation between October 2011 and January 2012 at our SSA
Headquarters in Woodlawn, Maryland. The entity reviewed was the Office of Program
Development and Research. We conducted our evaluation in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.




                                          B-2
                                                                                 Appendix C

  Examples of Quick Disability Determination Cases
  The following charts present examples of Quick Disability Determination (QDD) cases
  whose scores were lower than cases not processed as QDD. We judgmentally selected
  these examples; therefore, they may or may not represent all disability cases.

                                    May 2010 Example Cases
                                                                                               Number of
                                                                                                Days to
                               Disability          Case                                         Process
Example         DDS           Case Type           Status               Case Score                Case
   1      New York, NY       Title XVI Child       QDD       Score lower than Non-QDD case          5
          Savannah, GA       Title XVI Child     Non-QDD     Score higher than QDD case            22

   2      Buffalo, NY        Title XVI Child       QDD       Score lower than Non-QDD case        33
          Phoenix, AZ        Title XVI Child     Non-QDD     Score higher than QDD case           82

   3      Baton Rouge, LA    Title XVI Child       QDD       Score lower than Non-QDD case        15
          San Diego, CA      Title XVI Child     Non-QDD     Score higher than QDD case           70

   4      Waterbury, VT          Title II          QDD       Score lower than Non-QDD case         46
          St. Paul, MN           Title II        Non-QDD     Score higher than QDD case           432

  In one of the above examples, a QDD case had a score of .7500; whereas, another
  case with a score of .8866 was not identified as QDD. The case not identified as QDD
  took longer to process than the QDD case.

                               September 2011 Example Cases
                                                                                             Number Days
                             Disability          Case                                         to Process
Example         DDS          Case Type          Status               Case Score                  Case
   1      Madison, MS        Concurrent          QDD       Score lower than Non-QDD case          17
          Boise, ID          Concurrent        Non-QDD     Score higher than QDD case             70

   2      Endicott, NY       T16 Adult           QDD       Score lower than Non-QDD case          10
          Greensburg, PA     T16 Adult         Non-QDD     Score higher than QDD case            144

   3      Miami, FL          T16 Adult           QDD       Score lower than Non-QDD case         12
          Jacksonville, FL   T16 Adult         Non-QDD     Score higher than QDD case            96

   4      Anchorage, AK      T16 Child           QDD       Score lower than Non-QDD case         13
          Decatur, GA        T16 Child         Non-QDD     Score higher than QDD case            62

  In one of the above examples, a QDD case had a score of .6973; whereas, a non-QDD
  case with a score of .8832 took longer to process than the QDD case.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:                                                                              Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft, “The Social Security Administration's Selection Process
           for Quick Disability Determinations” (A-15-11-11175)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S SELECTION PROCESS FOR
QUICK DISABILITY DETERMINATIONS” (A-15-11-11175)

Recommendation 1

Continue efforts to monitor and enhance the PM to meet the objectives of the QDD program.

Response

We agree.




                                             D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgment
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Ronald Anderson, Senior Auditor

Acknowledgment

In addition to those named above:

Sigmund Wisowaty, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-15-11-11175.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
